<html>
<title> - NANOTECHNOLOGY: THE STATE OF NANO-SCIENCE AND ITS PROSPECTS FOR THE NEXT DECADE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  NANOTECHNOLOGY: THE STATE OF NANO-SCIENCE AND ITS PROSPECTS FOR THE 
                              NEXT DECADE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON BASIC RESEARCH

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 22, 1999

                               __________

                               No. 106-40

                               __________

            Printed for the use of the Committee on Science



                    U.S. GOVERNMENT PRINTING OFFICE
60-678 CC                   WASHINGTON : 1999



                          COMMITTEE ON SCIENCE

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
SHERWOOD L. BOEHLERT, New York       GEORGE E. BROWN, Jr., California
LAMAR SMITH, Texas                   RALPH M. HALL, Texas
CONSTANCE A. MORELLA, Maryland       BART GORDON, Tennessee
CURT WELDON, Pennsylvania            JERRY F. COSTELLO, Illinois
DANA ROHRABACHER, California         JAMES A. BARCIA, Michigan
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 LYNN N. RIVERS, Michigan
ROSCOE G. BARTLETT, Maryland         ZOE LOFGREN, California
VERNON J. EHLERS, Michigan           MICHAEL F. DOYLE, Pennsylvania
DAVE WELDON, Florida                 SHEILA JACKSON-LEE, Texas
GIL GUTKNECHT, Minnesota             DEBBIE STABENOW, Michigan
THOMAS W. EWING, Illinois            BOB ETHERIDGE, North Carolina
CHRIS CANNON, Utah                   NICK LAMPSON, Texas
KEVIN BRADY, Texas                   JOHN B. LARSON, Connecticut
MERRILL COOK, Utah                   MARK UDALL, Colorado
GEORGE R. NETHERCUTT, Jr.,           DAVID WU, Oregon
    Washington                       ANTHONY D. WEINER, New York
FRANK D. LUCAS, Oklahoma             MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                BRIAN BAIRD, Washington
STEVEN T. KUYKENDALL, California     JOSEPH M. HOEFFEL, Pennsylvania
GARY G. MILLER, California           DENNIS MOORE, Kansas
JUDY BIGGERT, Illinois
MARSHALL ``MARK'' SANFORD, South 
    Carolina
JACK METCALF, Washington




                            C O N T E N T S

                              ----------                              
June 22, 1999:
                                                                   Page
    Opening Statement by Representative Nick Smith, Chairman, 
      Subcommittee on Basic Research, U.S. House of 
      Representatives............................................     1
    Opening Statement by Representative Eddie Bernice Johnson, 
      Ranking Minority Member, Subcommittee on Basic Research, 
      U.S. House of Representatives..............................     2
Panel:
    Eugene Wong, Assistant Director for Engineering, National 
      Science Foundation: Testimony..............................     3
    Paul McWhorter, Deputy Director, Microsystems Science, 
      Technology and Components Center, Sandia National 
      Laboratories: Testimony....................................     5
    Richard Smalley, Professor of Physics and Chemistry, Rice 
      University: Testimony......................................     7
    Ralph Merkle, Research Scientist, XEROX Palo Alto Research 
      Center: Testimony..........................................     9
    Discussion...................................................    11

                     APPENDIX 1: OPENING STATEMENTS

    Written Statement by Representative Nick Smith, Chairman, 
      Subcommittee on Basic Research, U.S. House of 
      Representatives............................................    24
    Written Statement by Representative Eddie Bernice Johnson, 
      Ranking Minority Member, Subcommittee on Basic Research, 
      U.S. House of Representatives..............................    25
    Written Statement by Representative Lynn Woolsey, 
      Subcommittee on Basic Research, U.S. House of 
      Representatives............................................    27

APPENDIX 2: WRITTEN TESTIMONY, BIOGRAPHIES, FINANCIAL DISCLOSURES, AND 
                   ANSWERS TO POST-HEARING QUESTIONS

Eugene Wong, Assistant Director for Engineering, NSF:
    Written Testimony............................................    30
    Biography....................................................    40
    Answers to Post-Hearing Questions............................    41
Paul McWhorter, Deputy Director, Microsystems Science, Technology 
  and Components Center, Sandia National Laboratories:
    Written Testimony............................................    47
    Biography....................................................    48
    Letter from Paul McWhorter to the Honorable Nick Smith, 
      Chairman, Subcommittee on Basic Research, on Improving Peer 
      Review for Nanoscience.....................................    49
    Answers to Post-Hearing Questions............................    51
Richard Smalley, Professor of Physics and Chemistry, Rice 
  University:
    Written Testimony............................................    55
    Biography....................................................    69
    Financial Disclosure.........................................    70
    Answers to Post-Hearing Questions............................    71
Ralph Merkle, Research Scientist, XEROX Palo Alto Research 
  Center:
    Written Testimony............................................    78
    Biography....................................................    91
    Financial Disclosure.........................................    92
    Answers to Post-Hearing Questions............................    93

                  APPENDIX 3: MATERIAL FOR THE RECORD

Neil Gross and Otis Port, ``The Next Wave,'' Business Week, 
  August 24-31, 1998.............................................   100
The Physics of Materials: How Science Improves Our Lives, 
  Committee on Condensed-Matter  and Materials Physics, National 
  Research 
  Council, 1997..................................................   104


HEARING ON NANOTECHNOLOGY: THE STATE OF NANO-SCIENCE AND ITS PROSPECTS 
                          FOR THE NEXT DECADE

                              ----------                              


                         TUESDAY, JUNE 22, 1999

                  House of Representatives,
                              Committee on Science,
                            Subcommittee on Basic Research,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:00 p.m., in 
Room 2318, Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee] presiding.
    Chairman Smith [presiding] The Science Subcommittee on 
Basic Research will come to order for the purpose of a hearing 
on nanotechnology and the state of nanoscience and its 
prospects for the future decades.
    Today the Subcommittee is meeting to review federal funding 
of research into nanotechnology, to discuss the role of the 
Federal Government in supporting nanoscience research, and to 
discuss the economic implications of the scientific advances 
made in the field of nanotechnology.
    In Fiscal Year 1999, the Federal Government will spend 
approximately $230 million on nanotechnology research. Eighty 
percent of the funding comes from the National Science 
Foundation, about $90 million; the Department of Defense; the 
Department of Energy. The remaining money comes from the 
National Institutes of Health, the Department of Commerce, and 
NASA. In addition, the private sector has shown interest in the 
field of nanotechnology. And the question that this 
Subcommittee hopes to answer is how much effort should the 
Federal Government be putting into taxpayer funded research in 
this area?
    According to testimony submitted by our panelists, 
scientists have already learned a great deal about how to use 
nanotechnology. The best example of this is today's 
biotechnology industry. But, according to researchers, that is 
only the beginning. Nanotechnology holds great promise for 
breakthroughs in health, manufacturing, agriculture, energy, 
and national security. In fact, some researchers state that 
over the next few decades, nanotechnology will impact every 
aspect of our society.
    Unfortunately, while progress has been made, the United 
States does not dominate nanotechnology. A significant amount 
of research is currently underway in Europe, especially Japan. 
In that context, it seems to me it is appropriate that we 
cooperate and keep abreast of the research being done in these 
other countries. It is also appropriate for the Subcommittee to 
take a good look at the Federal Government's role in funding 
nanotechnology research, to discuss what can be done to help 
move this research from the lab to the marketplace, and to 
discuss where nanotechnology might be in 10, 20, 30 years from 
now.
    I would like to thank our esteemed panelists very much for 
taking time out of your schedule to be here today and would ask 
our Ranking Member if she has a statement at this time.
    Ms. Johnson. Thank you, Mr. Chairman. I'm pleased to join 
you today in welcoming our witnesses for this afternoon's 
hearing. The ages of civilization are designated by reference 
to a prominent material that could be fashioned by the 
prevailing state of technology. For example, the Stone Age, the 
Bronze Age, and the Iron Age. Now we are at the threshold of an 
age in which materials can be fashioned, atom by atom.
    The word ``revolutionary'' is too overworked to have much 
impact anymore, but nanotechnology, which is the subject of 
today's hearing, truly is revolutionary. As expressed in a 
recent report from the National Research Council, the ability 
to control and manipulate atoms, to observe and simulate 
collective phenomenon, to treat complex material systems, and 
to span length scales from atoms to our everyday experience 
provides opportunities that were not even imagined a decade 
ago. Nanotechnology will have enormous consequences for the 
information industry, the manufacturing of all kinds of 
medicines and health. Indeed, one of our witnesses has written 
that it will leave virtually no product untouched.
    I congratulate the Chairman for convening this hearing so 
that we may learn more about the promise of this research 
related to nanotechnology and about the marvels that have been 
accomplished thus far. We are, naturally, interested in hearing 
the panel's assessment of the vitality of federally supported 
research efforts in this field and we are aware that the 
planning activities are underway which may lead to research in 
this nanotechnology in the Administration's Fiscal Year 2000 
budget request.
    The views of the panel on the value, timeliness, and 
appropriate focus of such an initiative would be welcome. 
Again, I want to thank you, Mr. Chairman, for calling this 
hearing and I appreciate the attendance of our witnesses. Maybe 
in 10 years, 15 or 20 years, we will say we had that hearing 
and look what it brought. Thank you.
    Chairman Smith. Thank you, Representative Johnson. At this 
time, I would like to introduce our panelists and also, for 
your information, your testimony will be live because it is 
being webcast on our website.
    First is Dr. Eugene Wong. He is the Assistant Director for 
Engineering at the National Science Foundation. Paul McWhorter 
is the Deputy Director of the Microsystems Science Technology 
and Components Center at the Sandia National Laboratories. 
Richard Smalley is Professor of Chemistry and Physics at Rice 
University and in 1996 was awarded the Nobel Prize in 
Chemistry. Ralph Merkle is a research scientist at Xerox Palo 
Alto Research Center. In 1998, he and NASA scientist Stephen 
Walch were awarded the Feynmann Prize in Nanotechnology. 
Esteemed witnesses today. We thank you.
    It is our policy to have witnesses take the oath. If you 
would rise and raise your right hand.
    Do you solemnly swear that the testimony that you are about 
to give is the truth, the whole truth, and nothing but the 
truth?
    Mr. Wong. Yes.
    Mr. McWhorter. Yes.
    Mr. Smalley. Yes.
    Mr. Merkle. Yes.
    Chairman Smith. Let the record indicate that all witnesses 
have indicated in the affirmative. And we thank you very much.
    And the spoken testimony we try to limit to 5 minutes. 
There is a green, yellow, and red light on the little boxes in 
front of you. But all testimony that you have presented to the 
Committee in writing, without objection, will be entered into 
the record of this hearing. And, hearing no objection, it's so 
ordered.
    Dr. Wong, if you would begin.

   TESTIMONY OF EUGENE WONG, ASSISTANT DIRECTOR, ENGINEERING 
   DIRECTORATE, NATIONAL SCIENCE FOUNDATION, ARLINGTON, VA; 
      ACCOMPANIED BY PAUL J. MC WHORTER, DEPUTY DIRECTOR, 
MICROSYSTEMS SCIENCE, TECHNOLOGY, AND COMPONENTS CENTER, SANDIA 
  NATIONAL LABORATORIES, ALBUQUERQUE, NM; RICHARD E. SMALLEY, 
PH.D., THE GENE AND NORMAN HACKERMAN PROFESSOR OF CHEMISTRY AND 
 PROFESSOR OF PHYSICS, RICE UNIVERSITY, HOUSTON, TX; AND RALPH 
   C. MERKLE, XEROX PALO ALTO RESEARCH CENTER, PALO ALTO, CA

                    TESTIMONY OF EUGENE WONG

    Mr. Wong. Yes. My name is Eugene Wong and I am the 
Assistant Director of the National Science Foundation for 
Engineering. I am pleased to come before you to testify on the 
great opportunities that are presented to us in the area of 
nanoscience and technology.
    One nanometer is truly a magical point on the scale of 
length, for it is at this place where the smallest man-made 
things meet the natural atoms and molecules of the living 
world. Recent discoveries at this scale are promising to 
revolutionize biology, electronics, materials, and other 
applications. We are seeing inventions and discoveries that 
were unimaginable only a very short time ago. For example, we 
now have materials and electronic devices that assemble 
themselves and we will see an example of that in a moment and 
biological motors extracted from living systems and running on 
their own.
    What is nanoscale? One nanometer is 1-billionth of a meter. 
To get an idea of the size, we can compare some familiar 
things. The diameter of an atom is about \1/4\ of 1 nanometer. 
The diameter of a human hair, on the other hand, is 10,000 
nanometers. The protein molecules, which are so important, so 
critical to life, are several nanometers in size. Moving to 
man-made things. The smallest devices on commercially available 
chips are about 200 nanometers, whereas the smallest 
experimental device on experimental chips are approximately 10 
nanometers in their smallest dimension. Nanoscale refers to 
dimensions that vary from a fraction of a nanometer to tens of 
nanometers.
    Figure one provides a good illustration of the scale.
    [Slide.]
    This is an image of a pyramid of germanium atoms sitting on 
top of a silicon base--silicon surface. The pyramid is about 10 
nanometers across its base and only 1.5 nanometers in height. 
Each round-looking object is a single germanium atom. This 
pyramid was made at the Hewlett-Packard Laboratories and was 
formed just a few seconds all by itself via a process called 
self-assembly. Self-assembly is illustrated in figure two.
    [Slide.]
    Here we have a collection of actual materials that were 
formed by self-assembly. They take different shapes and I think 
one of the key points about self-assembly is by properly 
creating the environment for assembly, these molecules and 
atoms actually collect themselves into the requisite shapes, as 
in the case of the sphere and as in the case of the pyramid 
that we saw on the last--in the last figure.
    Over the last 20 years, a series of instruments were 
invented that now allows us to see, manipulate, and control 
objects in nanoscale. They are the eyes, fingers, and tweezers 
of the nanoscale world. With these remarkable tools, a new 
world of discovery and invention has been created. This is the 
world of nanoscale science and technology.
    Not every piece of nanoscale science and technology is new. 
Photography, for example, is a relatively old nanotechnology. 
Most of molecular biology also works at nanoscale and some of 
it is clearly not new. What is new and different is the degree 
of understanding we are able to achieve with the new tools and 
the precision and control that we are able to exert on the--on 
molecules and devices at this scale. Because of the new 
techniques, we are witnessing truly an explosion of 
revolutionary discoveries in nanoscale.
    Why is nanoscale so important? First, I think the small 
size itself is of critical importance. Microelectronics through 
successively reducing the size of devices and increasing the 
density of devices interconnection on chips has brought us the 
revolution in information technology we see today. And I think 
the systematic reduction to the nanoscale range will be just as 
important a development.
    Second, with the ability to control and change nanoscale 
structures and materials, we can dramatically improve their 
properties without ever changing their chemical composition. 
And this is a new-found--this is a new dimension.
    Third, much of molecular biology works at nanoscale. By 
using the techniques of nanoscale science in biology, we gain 
two great advantages: a deeper understanding of how nature 
works and ways to mimic and improve upon nature. The 
applications of nanoscale science and technology will lead to 
breakthroughs in a myriad of applications, in information 
technology, advanced manufacturing, medical care, the 
environment, energy generation, and national security.
    While my written testimony contains several examples of 
potential applications in these areas, here I will just 
highlight a couple of examples. The first commercial nanoscale 
products are already in production. The--a magnetic rehab for 
disk drives with nanoscale dimensions and based on the giant 
magneto-resistance principle is on themarket today and promises 
to revolutionize the computer storage market. Prototypes of memory 
chips using an advanced version of the same principle have also been 
designed and fabricated.
    [Slide.]
    Figure three shows an example of these memory chips. Figure 
three shows a design for nanoscale memory chips that will have 
1,000 times the memory; 100,000 times in speed--and be 100,000 
times in speed; and only \1/10\ the size of existing memory 
chips.
    Nanotechnology can be used to dramatically improve animal 
and plant genetics and better control the growing processes in 
agriculture. Nanofabrication of detector arrays provides the 
potential to do thousands of simultaneous gene experiments with 
very small amounts of material.
    [Slide.]
    Figure four shows a chip--figure four, please. Figure four 
is the picture of a natural nanochip with 6,400 dots, each 
containing a small amount of a different gene in the yeast 
genome. With this chip, scientists can discover which genes are 
being activated or inhibited during the growing process. The 
application of this technology to agriculture has only begun to 
be appreciated.
    The nanochip will allow the genes to be completely 
characterized, molecule by molecule, in just a few hours. Only 
a short time ago, the same experiment would have taken dozens 
of scientists years to complete.
    The National Science Foundation has a long history of 
support for research in nanoscale science and technology. 
Research supported by the Mathematical and Physical Sciences 
Directorate has culminated in two Nobel Prizes in the last few 
years. One of these went to Dr. Richard Smalley, who is here 
today testifying. NSF also funds the National Nanofabrication 
Users Network, which provides the primary fabrication 
infrastructure for chip-level nanoscale research.
    Yes.
    Chairman Smith. I apologize for interrupting, but if you 
would sort of conclude in the next 30 seconds or so, we will 
have a lot of time for questions.
    Mr. Wong. Yes, please. Thank you.
    Despite great commercial promise, the field of nanoscale 
science and technology cannot advance without strong federal 
support because this is a basic research area in its early 
stages of development. That is why we are coming before you to 
seek your encouragement and your endorsement of this important 
area.
    Chairman Smith. Mr. McWhorter.

                TESTIMONY OF PAUL J. MC WHORTER

    Mr. McWhorter. I am Paul McWhorter from Sandia National 
Laboratories. I would like to thank the Committee for the 
invitation to talk to you about the role of nanotechnology in 
the second silicon revolution.
    It is really difficult to imagine any field of science or 
technology that has had a more profound impact on the last 
half-century than microelectronics. The hallmark of the 
microelectronics industry has been to each year provide chips 
that are smaller, faster, cheaper, and better. This has 
revolutionized all aspect of our lives from our most advanced 
weapons systems to our toaster ovens.
    The global microelectronics industry has vectored ahead 
based on a very simple metric: to make transistors smaller. As 
transistors become smaller, they become faster. You can pack 
more of them on the chip and chips are able to store and 
process more information. To date, this has been the silicon 
revolution.
    Today we stand on the verge of a second silicon revolution. 
The metrics of the second silicon revolution will be different 
and more important than simply continuing to pack more 
transistors onto a chip. The metrics of the second silicon 
revolution will be the incorporation of new structures, 
microscopic machines, on the chip alongside the transistors, 
creating a whole new generation of computer chip, a chip that 
can not only think but sense, act, and communicate as well. 
These fully functional machines have feature sizes smaller than 
human red blood cells. This new capability will have as 
profound of an impact on our lives over the next 30 years as 
microelectronics have over the past 30 years.
    The second silicon revolution has begun and a variety of 
commercial products exist today that contain micromachines. To 
fully realize the potential of the second silicon revolution, 
however, certain scientific hurdles must be overcome. In the 
1800's, realization of high-performance, traditional industrial 
machines required the development of a fundamental 
understanding of the science of the microdomain. Similarly, to 
effectively design, build, and operate machines in the 
microdomain, we must have a fundamental understanding of the 
materials and surfaces in the nanodomain. Nanotechnology and 
nanoscience will be the key elements of fully achieving the 
vision of micromachines and microsystems. It will be 
nanotechnology that will lead to new functions, better 
performance, and higher reliability in micromachines and 
microsystems.
    I have a very brief two-minute video I would like to show 
that just describes the state-of-the-art of microtechnology to 
date. If you could roll the video.
    Chairman Smith. We would note for the audience that we have 
three screens: one in the middle and one in----
    [Video.]
    Mr. McWhorter. This is a picture of the world's smallest 
machine in operation. This is a transmission. For size 
comparison, the gear teeth that you are looking at are the size 
of a red blood cell. The gear itself is the size of a grain of 
pollen. This transmission is used as part of a system to 
increase the force that you can get out of the microdevices.
    This is a rack and pinion system that we demonstrated. 
Again, built at Sandia National Laboratories. This enables us 
to get large linear displacements in the microdomain.
    All of these devices are built using integrated circuit 
fabrication technique and they're batch fabricated tens of 
thousands at a time on a six-inch silicon wafer. Bringing these 
technologies together, we create this microscopic positionable 
mirror with large implications for use in the global 
telecommunications infrastructure. You can see it switching an 
optical lasar at a very fast rate.
    This is a prototype safety mechanism for a nuclear weapon 
that has been developed. The purpose of this is to work on 
researching ways to continue to increase the safety of the 
nation's nuclear weapons. This device operates by it has a 24-
bit code, which means that there is less than a 1 in16 million 
chance of a random occurrence causing this device to unlock. You can 
see the engine driving the pin structure up and down inside of a maze. 
This is the way the decoding function is done. There is an engine and 
transmission that is moving this entire platform from the right to the 
left.
    In order to unlock or arm the weapon, the code has to be 
entered correctly. The two gears that you see on the platform 
have to come and engage the other gear train in order to pop up 
a mirror to arm the weapon. Remember, this entire device is 
microscopic in dimension and built thousands at a time.
    The code's been entered correctly. The gears here engage. 
That completes the gear train and we're able to pop up the 
mirror and arm the weapon. This is just an example of the type 
of technology that is available today in the microdomain.
    Chairman Smith. Now is each gear the size of a red blood 
cell or----
    Mr. McWhorter. Each gear is the size of a grain of pollen.
    This is just another size demonstration. This is a 
microscopic dust mite that we were able to give a ride around 
on the outfit gear of the microengine.
    The message I would like to leave you with today is that 
microtechnology is real. It is here today. But, looking towards 
the future, to really realize the full potential of the 
microtechnology, we desperately need the type of capability 
further described in the term nanoscience. Other people on the 
panel will tell you more about the broader, longer term 
application of nanotechnology. What I would like to tell you is 
there is a need for it today in the area of microsystems and 
there would be--in addition to the longer term applications, 
there would be short-term impact from this work.
    Chairman Smith. Thank you.
    Dr. Smalley.

                TESTIMONY OF RICHARD E. SMALLEY

    Mr. Smalley. Mr. Chairman, I appreciate the opportunity 
today to present my views on nanotechnology. There is a growing 
sense in the scientific and technical community that we are 
about to enter a golden new era. We are about to be able to 
build things that work on the smallest possible length scales, 
atom by atom, with the ultimate level of finesse. These little 
nano things and the technology that assembles and manipulates 
them, what we call nanotechnology, will, I am certain, 
revolutionize our industries and our lives.
    Everything we see around us is made of atoms, the tiny 
elemental building blocks of matter. From stone to copper to 
bronze, iron, steel, and now silicon, the major technological 
ages of human kind have been defined by what these atoms can do 
in huge aggregates, trillions upon trillions of atoms at a 
time, molded, shaped, and refined as macroscopic objects. And 
even in our vaunted microelectronics of today, 1999, and our 
highest tech silicon computer chip, even the smallest feature 
is still a mountain compared to the size of an atom. The 
resultant technology of our 20th century is fantastic, but it 
pales when compared to what will be possible when we learn to 
build things at the ultimate level of finesse, one atom at a 
time. And if you think you have seen something now, just wait. 
This next century is going to be incredible.
    Nature has played the game at this level for billions of 
years, building stuff with atomic precision. Every living thing 
is made of cells that are chock full of nanomachines. Not quite 
as cute as these we just saw, but beautiful in their own way, 
each of them going about the business of life, rubbing up 
against one another. Each perfect right down to the last atom. 
The workings are so exquisite that changing the location or the 
identity of just a single atom causes the machine to change, 
generally to damage it.
    Over the past century, we have learned about the workings 
of these biological nanomachines to an incredible level of 
detail and the benefits of this knowledge are beginning to be 
felt now in medicine. In the coming decades, we will certainly 
learn to modify and adapt this machinery to extend both the 
quality and the length of life. Biotechnology was the first 
nanotechnology and it has certainly a long, long way to go.
    Let me give you just one personal example: cancer. As I sit 
before you today, I have very little hair on my head. It fell 
out a few weeks ago as a result of the chemotherapy that I have 
been undergoing to treat a type of non-Hodgkin's lymphoma, the 
same sort that recently killed King Hussein of Jordan. While I 
am very optimistic, this chemotherapy, frankly, is a very blunt 
tool. And I am sure most of you have personal awareness of 
this. It consists of small molecules which are toxic. They kill 
cells in my body and although they are meant to kill only the 
cancer cells, they kill hair cells, too, and cause all sorts of 
other havoc.
    Now, I'm not complaining. Twenty years ago, without even 
this crude chemotherapy, I would probably already be dead. But 
20 years from now, not that far in the future, I'm confident we 
will no longer have to use just this blunt tool. By then, 
nanotechnology will have given us specially engineered drugs 
which are nanoscale and essentially cancer-seeking missiles, a 
molecular technology that specifically targets just the mutant 
cancer cells in the human body and leaves everything else 
blissfully alone.
    To do this, these drug molecules will have to be big 
enough--probably thousands, perhaps tens of thousands of 
atoms--so that we can code information into them of where they 
should go and what they should kill. They will be examples of 
an exquisite--a new exquisite nanotechnology, this time human-
made, a technology of the future. I may not live to see it, 
but, with your help, I am confident it will happen and cancer, 
at least the type that I have, will be a thing of the past.
    Powerful as it is, this bio-side of nanotechnology that 
works in water in the water-based world of living things will 
not be able to do everything. It cannot make things strong like 
steel or conduct electricity with the speed and efficiency of 
copper or silicon. For this, other nanotechnologies are being 
developed and will be developed in the future. It's what I call 
the dry side of nanotech.
    My own research these days has focused on carbon nanotubes. 
Can we have my first slide? Or do I need to hit my laptop? Is 
it----
    [Slide.]
    This is a carbon nanotube. These nanotubes are an outgrowth 
of the research that led to the Nobel Prize a few years ago. 
These nanotubes are absolutely incredible. They are expected to 
produce fibers 100 times stronger than steel, but only \1/6\ 
the weight. Almost certainly the strongest fibers that will 
ever be made out of anything, strong enough, even to build an 
elevator to space. In addition, they will conduct electricity 
better than copper and transmit heat better than diamond. 
Membrane made from the rays of these nanotubes are expected to 
have revolutionary impact in the technology of rechargeable 
batteries and fuel cells, perhaps giving us all-electric 
vehicles within the next 10 to 20 years with the performance 
and range of a Corvette at a fraction the cost.
    [Slide.]
    As individual nanoscale molecules, these carbon nanotubes 
are unique. Just think of one at a time. Theyhave been shown--
here you see one draped across a few electrodes. They have been shown 
to be true molecular wires, to conduct electricity like copper--in 
fact, even better--and have already been assembled into the first 
molecular transistor ever built; with just a single molecule, a 
functional transistor. Several decades from now, we expect to see--we 
may be able to see. We don't know yet--but it may be possible that, 
within several decades, our current silicon-based microelectronics will 
be supplanted by a carbon-based true nanoelectronics of vastly greater 
power and scope.
    It is amazing what one can do just by putting atoms where 
you want them to go.
    Recently an Interagency Working Group on Nano Science, 
Engineering, and Technology has studied the field of 
nanotechnology in detail and made its recommendation to OSTP on 
March 10 for a new initiative in this critical area. Quoting 
briefly from Mike Roco, chair of this working group:

    A national initiative, entitled Nanotechnology in the 21st 
Century Leading to a New Industrial Revolution is recommended 
as part of the Fiscal Year 2001 budget. The initiative will 
support long-term nanotechnology research and development which 
will lead to breakthroughs in information technology, advanced 
manufacturing, medicine, health, environment and energy, and 
national security. The impact of nanotechnology on health, 
wealth, and lives of people will be at least the equivalent of 
the combined influences of microelectronics, medical imaging, 
computer-aided engineering, and man-made polymers developed in 
this century.

    Mr. Chairman, honorable Congressmen, I believe it is in our 
nation's best interests to move boldly into this new field. 
Thank you.
    Chairman Smith. Dr. Smalley, exciting testimony. This is 
the most--I want the witnesses to know, this is the most high-
tech Committee room that we have in the United States Congress 
and we had a slight malfunction and that's--so our screen for 
the members sort of malfunctioned.
    Dr. Merkle, please proceed.

                  TESTIMONY OF RALPH C. MERKLE

    Mr. Merkle. Thank you very much, Mr. Chairman. For 
centuries, manufacturing methods have gotten more precise, less 
expensive, and more flexible. In the next few decades, we will 
approach the limits of these trends. The limit of precision is 
the ability to get every atom where we want it. The limit of 
low-cost is set by the cost of the raw materials and the energy 
involved in manufacture. The limit of flexibility is the 
ability to arrange atoms in all the patterns permitted by 
physical law.
    Most scientists agree we will approach these limits but 
differ about how best to proceed, on what nanotechnology will 
look like, and then how long it will take to develop. Much of 
this disagreement is caused by the simple fact that, 
collectively, we have only recently agreed that the goal is 
feasible and we have not yet sorted out the issues that this 
creates. This process of creating a greater shared 
understanding both of the goals of nanotechnology and the 
routes for achieving those goals is the most important result 
of today's result.
    Nanotechnology, or molecular nanotechnology, to refer more 
specifically to the goals discussed here, will let us continue 
the historical trends in manufacturing right up to the 
fundamental limits imposed by physical law. It will let us make 
remarkably powerful molecular computers. It will let us make 
materials over 50 times lighter than steel or aluminum alloy, 
but with the same strength. We will be able to make jets, 
rockets, cars, or even chairs that, by today's standards, would 
be remarkably light, strong, and inexpensive. Molecular 
surgical tools, guided by molecular computers and injected into 
the bloodstream, could find and destroy cancer cells or 
invading bacteria, unclog arteries, or provide oxygen when the 
circulation is impaired.
    Nanotechnology will replace our entire manufacturing base 
with a new, radically more precise, radically less expensive, 
and radically more flexible way of making products. The aim is 
not simply to replace today's computer chip-making plants, but 
also to replace the assembly lines for cars, televisions, 
telephones, books, surgical tools, missiles, bookcases, 
airplanes, tractors, and all the rest. The objective is a 
pervasive change in manufacturing, a change that will leave 
virtually no product untouched. Economic progress and military 
readiness in the 21st century will depend fundamentally on 
maintaining a competitive position in nanotechnology.
    Many researchers think self-replication will be the key to 
unlocking nanotechnology's full potential, moving it from a 
laboratory curiosity able to expensively make a few small 
molecular machines and a relative handful of valuable products 
to a robust manufacturing technology able to make myriads of 
products for the whole planet. We know self-replication can 
inexpensively make complex products with great precision. Cells 
are programmed by DNA to replicate and make complex systems, 
including giant redwoods, wheat, whales, birds, pumpkins, and 
more.
    We should likewise be able to develop artificial, 
programmable, self-replicating molecular machine systems, also 
known as assemblies, able to make a wide range of products from 
graphite, diamond, and other non-biological materials. The 
first groups to develop assemblers will have a historic window 
for economic, military, and environmental impact.
    Developing nanotechnology will, I think, be a major 
project, just as developing nuclear weapons or lunar rockets 
were major projects. We must first focus our efforts on 
developing two things: the tools with which to build the first 
molecular machines and the blueprints of what we are to build. 
This will require the cooperative efforts of researchers across 
a wide range of disciplines: scanning probe microscopy, 
supramolecular chemistry, protein engineering, self-assembly, 
robotics, materials science, computational chemistry, self-
replicating systems, physics, computer science, and more. This 
work must focus on fundamentally new approaches and methods; 
incremental or revolutionary improvements will not be 
sufficient.
    Government funding is both appropriate and essential for 
several reasons. The benefits will be pervasive across 
companies and the economy. Few, if any, companies will have the 
resources to pursue this alone. And the development will take 
many years to a few decades beyond the planning horizon of most 
private organizations. We know it is possible. We know it is 
valuable. We should do it.
    Chairman Smith. Dr. Merkle, you still had 2 seconds to go 
before you finished. [Laughter.]
    It would seem to me if there was--first let me introduce my 
professional staff assignee, Peter Harsha, who is just coming 
to work for the Science Committee, for the Committee members 
and for those in the science community that will be working 
with this Subcommittee.
    It seems to me, listening to the testimony, that, if there 
was zero bias among you four gentleman that are offering this 
testimony, that the potential for this research in terms of 
what it can accomplish for humanity as well as what its 
potential is for industry and the economy is every bit as much 
or more than the silicon revolution. This Subcommittee will be 
looking closely at recommending that we substantially increase 
the government effort in terms of taxpayer dollars into this 
area of research as well as ways that we might encourage the 
private sector and industry, that might eventually benefit from 
such research, to have an all-out effort as the United States 
tries to maybe make sure that we are a lead nation.
    So my first question would be how do you evaluate--can we 
justify that kind of effort, number one? And how do you 
evaluate the United States position in terms of this research 
effort compared to Japan and Europe? And we'll just maybe each 
one of you, if you could take about 35, 45 seconds and give me 
a quick reaction, starting with you, Dr. Wong, and----
    Mr. Wong. Well, first of all, I think the benefits are 
obvious and very great and, as several of the panel members 
have already said. However great it is, the horizon is too long 
for private investment. But, nonetheless, any federal 
investment in this area will catalyze private investment. It 
will greatly accelerate the pace at which the benefits can be 
translated into real applications. I think the United States is 
in the forefront of this new science and technology area, but 
the other countries, the other developed nations, are not far 
behind. It is an area of great focus for all the developed 
countries in the world; for European countries as well as 
Japan.
    Mr. McWhorter. I think this is an area that the nation must 
maintain a leadership role in and in order to maintain and grow 
our leadership role in nanotechnology, I think government 
investment is critical. What we find in these emerging areas of 
technology is that many times commercial companies can be risk-
averse, but when government money can come in and catalyze and 
initiate an effort, then the industrial investment will follow. 
And so the activities that we are talking about here would be 
just critical to catalyzing this continued growth in our 
leadership position and in participation from more commercial 
companies.
    Chairman Smith. Dr. Smalley.
    Mr. Smalley. Let me just add that nanotechnology of the 
sort that has been talked about today is different than the 
major scientific technological pushes the country has undergone 
in the past, mostly since the Second World War and including 
the Manhattan Project, in that nanotechnology is intrinsically 
small science and so it is impossible to dominate the field by 
a huge program in a national laboratory with major facilities 
because it is a place where many small laboratories are active. 
In fact, hundreds throughout the world.
    So we are particularly--it's particularly possible for 
countries that are not as well-funded as the United States to 
be major players in this area. It is a small science initiative 
that needs to be treated as a big science, big technology, big 
impact area. Which makes its funding difficult. I mean, you 
can't say we are going to have a $300 million program to do 
this one particular thing because there are many particular 
things to be done. And so it brings to a focus the age-old 
difficulty in funding small science. Nonetheless, it is an area 
out of which, to many extents, all blessings will flow in this 
next century.
    Chairman Smith. Dr. Merkle.
    Mr. Merkle. Well, I think the benefits of this technology 
will indeed be very impressive and I think we need to continue 
and expand the base of research which has been pursued 
throughout the country to develop a better understanding at the 
molecular scale and a better ability to arrange and manipulate 
structures at the molecular scale.
    Beyond that, I would also suggest that research in 
artificial self-replicating systems would be a good thing to 
pursue, that this is an area where we have, so far, had 
relatively modest amounts of effort, mostly done by individuals 
or small groups.
    Chairman Smith. Just a follow-up question, Dr. Smalley. So 
does this--is it a situation--what is our weakness in terms of 
aggressively pursuing this research? Is it the talent of 
researchers that are capable of exploring this field? Or is it 
simply enough money to pay for enough grants to interest enough 
researchers?
    Mr. Smalley. I believe, at the moment, our weakness is the 
failure so far to identify nanotechnology for what it is. It is 
a tremendously promising new future which needs to have a flag. 
Somebody has to go out and put a flag in the ground and say: 
Nanotechnology, this is where we are going to go and we are 
going to have a serious national initiative in this area.
    Chairman Smith. Representative Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. And thank 
you so much for such an outstanding panel of witnesses today. I 
note that two of them have a Texas base. One is a University of 
Texas graduate and the other one is a researcher at Rice. And I 
am delighted.
    I was here when we voted down the supercollider that 
smashed the atoms and I was very chagrined by that and thought 
that was a mistake. And most of us here that were here during 
that time thought so. The ones who didn't think so are not here 
right now. And hopefully we won't do that again in research, 
because we all now realize the value of that kind of basic 
research.
    Tell me a bit about how--what is our standing--I know you 
commented on that earlier--in terms of funding this basic 
research? Because it is clear to me that this is really a 
government responsibility more than anything else. Private 
businesses just don't have the dollars nor do they feel the 
keen responsibility to do such basic research, not knowing what 
the future might bring. Most of them are directed toward a 
certain product when they are researching. And though we know a 
bit about the product--you just, Dr. Smalley, you mentioned 
some of the possibilities for the future that might come, but 
there are other things that might come that we don't know about 
yet.
    And I wonder, did we lose ground when we stopped putting as 
much into basic research here several years ago? We are trying 
to catch up now. And what are some of thepossibilities, you 
think, for the future? And how do we stand with other countries in 
funding our basic research?
    Mr. Wong. I think the nanoscience and technology represents 
an exemplar of how basic research really pays off. I think 
basic research in our areas have been one of the best 
investments the country has ever made. And I think we have seen 
an example of that. I think we have found enough in this sector 
to know what the future--how brilliant the future is going to 
be, how bright it is going to be.
    But I think we need to continue to invest in that area. 
There is a timing area. I think the particular thing about 
nanotechnology and nanoscience is the timing. The timing is 
right for a major advance, I think, in this area because we 
have so many, as Dr. Smalley has said, there are just so many 
things to be found, so many things to be investigated. This is 
truly a wonderful area for national investment.
    Mr. McWhorter. I really agree with the comment about 
timing, that there's been a lot of research that's been going 
on in the area of nanotechnology. I think that research has 
shown much promising results to where you can start seeing a 
glimmer of the future and a glimmer of what's going to be 
possible. I think one of the real opportunities with the 
program as you're considering it is that there has been a lot 
of research in a lot of different areas and such a program 
would have the capability of unifying and providing some vision 
and unification to the research that's going on. Because I 
think that, you know, the putting a man on the moon was 
mentioned earlier, that that was a single-minded goal, but many 
people lined up behind. And I think that that's one of the 
needs of nanotechnology is to have the big picture goal and the 
national initiative to energize the people working in the area.
    Mr. Smalley. Concerning our competitive situation vis-a-vis 
the rest of the world, as you know, coming out of the Second 
World War, the United States was premier in the world in the 
research that was done, both from native-born researchers and 
from European researchers that came over to get away from 
Hitler. And in many extents, we are running off of that 
wonderful time. I myself decided to go into science when 
Sputnik went up. I was in high school at the time. So that 
generation is passing now.
    At Rice University, for a quarter of a century, I have 
taught some of the very brightest human beings I have ever met. 
It's a fantastic university, as you know. It's amazing the 
fraction of them that do not go into science. By and large 
science is not what American boys and girls do. They go into 
other fields and do very well at it.
    We've managed to get this far here at the end of the 
century, still being pretty much as good as anybody, in many 
areas better than most, because of our openness, because of 
foreign researchers coming into work in our universities, and 
so forth. I don't think we should assume that will continue 
forever. European, Japanese, Asian universities have embraced 
research in very serious ways and, in many areas, are more than 
competitive with anything in the United States. The reason for 
foreign nationals to come to this country to do their Ph.D. 
dissertations is getting weaker and weaker. And one of these 
days it's going to happen that we don't do very good research 
in this country because we can't get good American boys and 
girls to get into the field.
    And that's one of the reason why I emphasize this is a 
small science activity. This is where we are most effective. We 
can have a huge project like the superconducting supercollider 
that can be worldwide premier because of the vast investment 
and we can sort of capture it. But this is much more diffuse 
and much more sensitive to the overall well-being of American 
science and the way it's perceived by youngsters. Many of these 
bright students don't go into the field because they see 
graduate students not getting jobs because of the decrease in 
the funding for basic research. They regard it as--this isn't a 
serious enterprise in society.
    Ms. Johnson. Thank you.
    Mr. Merkle. Well, I would agree with my fellow panelists 
that the opportunities in nanotechnology for the next few 
decades are absolutely remarkable and that it would be a great 
shame if we were to walk away from this. We must pursue this. 
It is essential that we pursue this in a timely fashion and, in 
fact, we are now seeing the major size of the opportunity.
    I think that we do, absolutely, need to pay attention to 
the younger generation. One of the things that I see is e-mail 
which is sent to me by students; students who send me requests 
asking, I want to get into nanotechnology. What should I do? I 
want to get into nanotechnology. Where are the programs? I can 
point them at Rice. I can point them at a few others. I want to 
be able to point them at more programs.
    Students are very quick to pick up on new ideas and new 
technology and they have picked on this and they are very 
excited. We need to provide the support and the follow-through 
so that they have somewhere to go so that they can learn what 
needs to be learned, so that they can participate in these 
programs, and so that we can develop the technology. Thank you.
    Ms. Johnson. Thank you very much.
    Chairman Smith. My good friend from California, 
Representative Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. When I was reviewing 
this hearing, I was thinking, well, how are these brilliant 
doctors going to be able to talk about nanotechnology so that 
laypersons will understand it, so that my constituents will 
understand it? So that the taxpayers will think it is a good 
idea that they pay taxes and that we actually invest in 
microtechnology? You were great. Thank you. Your testimonies 
were terrific. Dr. Smalley, you gave me my answer.
    So those are the kinds of things I think the public is 
going to be asking. I believe that not only the taxpayers, not 
only our constituents, but also our students, future students. 
Young people that come into your colleges are all ready to 
think of new technologies. We need not just boys, but girls to 
care about science and technology.
    And I think the kinds of questions they are going to be 
asking--and I'm going to ask them and then I hope you'll 
answer. One, does length of life or quality of life, which, or 
is it both, that are going to be affected by nanotechnology? I 
also think they're going to want to know, does self-replicating 
mean cloning? And, if so, what are the ethics?
    And, also, will the benefits of nanotechnology be used in 
peaceful applications or are we only looking at it so we can be 
bigger and better and competitive with the rest of the world? 
Is there a way we can all work together, globally, toimprove 
the challenges we have for lack of food, health care around the globe? 
Because, first of all, that's what people in my district just north of 
the Golden Gate Bridge will be asking me, Marin and Sonoma counties. 
And, second of all, that's a good way to get girls interested in 
science. They have to see a real, neat, something meaningful.
    So my three questions: quality of life, length of life; 
self-replicating; and a partnership for a peaceful benefit. So 
in whatever order. Dr. Merkle, you look ready.
    Mr. Merkle. Well, basically the answer to the question of 
will we improve the length or the quality of life, the answer 
is both. I think that as we see this technology mature, we will 
have a remarkable set of medical capabilities. Disease and ill-
health are caused largely by damage at the molecular and the 
cellular level, and today's surgical tools are simply too big 
to deal with damage at that level. In the future, we'll have 
surgical tools that are molecular, both in their size and their 
precision, and they will be able to intervene directly at the 
level where the damage occurs and correct it. So I think that 
will have a remarkable impact on health care overall and will 
lead to a revolution in medicine.
    As far as the self-replication, it's very much a non-
biological kind of self-replication. And to give you an 
analogy, if you look at cars. Cars provide transportation, but 
they are very mechanical in their design style. Horses also 
provide transportation and they're very biological. Horses can 
survive on sugar lumps, carrots, straw, hay, the whole bit. A 
car requires a refined fuel, a single refined fuel, such as 
gasoline. And it really can't function without gas, oil 
changes, spark plugs, roads to run on. It's an artificial 
device. It's a mechanical device.
    And in the kind of designs I've thought about for self-
replicating systems, they're very mechanical. They completely 
lack the adaptability of living systems. They are very much 
machine-oriented. And the thought of them being able to 
function outside of a very carefully controlled environment is 
similar to a car running wild in the woods.
    As far as the broader implications for the environment, I 
think that today's manufacturing methods are often too 
imprecise to economically avoid pollution. Because 
nanotechnology will be a very precise manufacturing technology, 
it won't pollute. As nanotechnology replaces existing 
manufacturing technologies, pollution from manufacturing plants 
will largely disappear.
    Nanotechnology will also let us make inexpensive solar 
cells and batteries, giving us very low-cost, clean solar 
power. This should virtually eliminate the need for coal, oil, 
and nuclear fuels.
    Ms. Woolsey. Dr. Smalley.
    Mr. Smalley. Let me just pick up on this last point that 
Dr. Merkle mentioned, the energy problem. Let's suppose that 
halfway through this next century, we really do have a problem 
with burning fossil fuels. Right now, I believe there's really 
one alternative that could really apply to the energy needs of 
the entire planet, which, of course, is what you have to do if 
you're going to affect things like the CO<INF>2</INF> 
greenhouse effect, if it is a problem. And right now that 
alternative is nuclear, nuclear fission, in particular, not 
nuclear fusion, fission.
    And while I can well imagine, I actually believe that the 
United States and Europe, Japan are stable enough societies 
that they could actually generate all their power by nuclear 
fission and provide the necessary stewardship to make the 
planet safe, I find it very hard to believe that the entire 
planet can operate as a nuclear power. And it is a very scary 
future. It would be very nice to have an alternative to fossil 
fuels and an alternative to nuclear fission that would be 
capable of providing energy for what will probably be 10 
billion to 15 billion people in the middle of this next century 
in a way that the planet can sustain.
    I believe that it's almost certain that, if that 
alternative exists, it has to be solar. But, right now, we do 
not have the solar technology that's even laughably close to 
being able to handle, for example, 80 percent of all the 
world's energy production. And if you don't do 80 percent, 
you're not touching the problem. And if you don't provide 
energy technology that is economically cheaper than any 
alternative, it won't be adopted any way.
    Where is that solar technology going to come from? Not just 
improving solar cells, but something totally new that on a 
cloudy day in New York can take most of the photons that hit 
some cheap collector and store it in some useful form of 
energy, hydrogen or electric charge someplace. When you think 
about the physics that controls that, you are rapidly led to 
the conclusion that the physics that makes it possible happens 
within a little one nanometer cubic box. That's where the event 
occurs that the energy from a photon becomes a stored hydrogen 
molecule and electron.
    In fact, in photosynthesis, it's about a one nanometer 
cubic space where, at the last moment, it becomes stored 
energy. I don't know what that solar energy technology is going 
to be, but I bet you it's a nanotechnology. That's one of the 
reasons why it's so important for us to invest in it now. It's 
so broadly disseminated. It involves so many disciplines. It is 
small science, thousands of laboratories. Somehow out of that, 
our hopes exist that that's where the solar technology comes 
out and we have an alternative this next century to either 
burning all our fossil fuels and the negative encounter that 
would come from that or to a nuclear fission power economy.
    Chairman Smith. The gentlelady's time has expired. The 
gentleman from Connecticut, Mr. Larson.
    Mr. Larson. Thank you, Mr. Smith. And I thank the panelists 
as well for this interesting and informative discussion. The 
one thing that I come away with is that all of you are 
absolutely sure that nanoscience and nanotechnology is the way 
of the future. I think someone used the term what we need to do 
is plant the flag. One of the things that seems to work here in 
Washington is if we're planting the flag we're doing so because 
there's an enemy that we're dealing with or a nation at risk.
    I believe--and not much has been discussed with respect to 
this--that on a number of technological fronts, because of 
advancing technology and competing nations that do not lag that 
far behind us, that we're in a unique position of seeing this 
nation leapfrog with its own technology. Witness the 
individual, you know, traveling on bicycle in Burma with a cell 
phone, communicating. I'd be interested in your response to the 
potential for leapfrogging and where does the scientific 
community come in collectively and say, hey, wake up America. 
This is a real problem. You're about to be leapfrogged by your 
own technology and your own arrogance for not having seen the 
opportunity to reinvest in yourself.
    Whoever wants to take it.
    Mr. Merkle. Okay, well I think the potential for 
leapfrogging is very great, obviously, because the basic 
requirements for doing research in nanotechnology are 
relatively small. It is possible for a relatively small 
organization to have a big impact. Now there are some very 
interesting questions around that as to whether a small group 
can effectively leapfrog a large group. I think they boil down 
to understanding where you're going and having a clear and 
sharp focus. And I think if a small group had a sharp focus, it 
could be very effective. Whether or not such a small group with 
such a sharp focus will develop in some foreign country I 
really can't say. It's certainly a possibility.
    Mr. Larson. You have the opportunity to make the decision 
today in this country to invest X number of dollars into 
nanotechnology. What would that figure be and where would you 
direct its focus?
    Mr. Merkle. I think the focus would be directed towards 
research which improved our ability to manipulate molecular 
structure. That would include scanning, probe microscopy, and 
self-assembly. That would be on the experimental end. I think 
on the theoretical end, I would focus very clearly on what does 
a molecular manufacturing system look like? In other words, we 
have been talking about what will we be seeing in 20 years or 
30 years, sometime in the next century? What will these 
remarkable advances look like?
    We have computational capabilities today which will let us 
model proposed molecular machines. And we could have very 
strong theoretical programs aimed at describing what this 
future will look like so we have a better understanding of what 
it is and how best to achieve it.
    Mr. Larson. So help me here. As a government official, what 
does the government do? Put out an RFP to our universities to 
say, look, please respond, you know, to this money that we've 
set--how would you go about directing that and focusing those 
dollars so it gets into the hands of people that are on the 
cutting edge of this technology? I mean, please help me here. 
I'm just----
    Mr. Wong. Yes, I think the National Science Foundation's in 
that business. It's our business to fund the most promising 
areas of research. And I think we believe in betting on the 
people; supporting the infrastructure, the research 
infrastructure; the universities; the highest quality peer-
review process. I think these are all important parts of the 
infrastructure that we have built up that have made the basic 
research such a productive enterprise.
    Speaking of leapfrogging, I think there are two points I'd 
like to make. One is it's easy to leapfrog in one specific 
aspect and that happens all the time. But in terms of an 
overall paradigm shift, to be able to really move, in a major 
way, in the sector, that requires a basic infrastructure. And I 
have a great deal of faith in the robustness of our 
infrastructure.
    Mr. Larson. How much money should the country be investing?
    Mr. Wong. The--I guess--I can tell you what we are doing 
now. The NSF at the moment is spending $90 million a year in 
nanoscale funds for research.
    Mr. Larson. Is that enough, Dr. Wong?
    Mr. Wong. That's not enough, but I think you are leading me 
to a dangerous place, which is to anticipate what the----
    Mr. Larson. That's our job. To lead you to dangerous places 
so we can make better decisions.
    Mr. Wong. Yes. I will try to accommodate you a little bit. 
I think the final budget will be issued, that the 
Administration is going to work out, over the next few months, 
but, clearly, from my own vantage point, I'm eagerly advocating 
the cost of this very important research.
    Chairman Smith. The gentleman's time has expired. It's at 
$230 million governmentwide, including other agencies, in 
addition to the $90 million.
    I think we'll do a short second round. And, Dr. Merkle, a 
question for you. How much can we expect the private sector to 
move ahead with research? Some have suggested, until they see 
the application within 2 to 5 years, there's not going to be an 
interest in the commercial sector to contribute to this kind of 
research. Give me--guide us in terms of what Xerox is doing and 
what we can expect other private sectors to do.
    Mr. Merkle. Well, Xerox, as an example, is happy to have 
one or perhaps \1/2\ a researcher working in this area, but 
certainly would not pursue any larger effort unless there were 
some outside source of funding. So the idea of having a 5- or 
10-person group, which is relatively modest as these things go, 
focus specifically on molecular and nanotechnology is not 
something that would be within the charter of Xerox. Similarly, 
I think, many other companies are relatively limited, or if 
they are pursuing research, are pursuing research with 
relatively near-term goals. So the commercial funding for long-
term development is relatively modest at the corporate level. 
If you look at major corporations, they are not pursuing this 
as aggressively as they might.
    Chairman Smith. The testimony from all of you, though, 
seems to imply that the application is in reach in a lot of 
areas and, if that is true, it seems like, somehow, there's a 
way to harness the contribution, financial contribution, an 
effort of the private sector as well. Does anybody have a 
reaction? Yes, Mr. McWhorter.
    Mr. McWhorter. I think the private sector will invest and 
will invest in a very large amount, but the issue with the 
private sector is risk. And, you know, the key aspect of what 
the investment will be is, you know, when will they see what 
the application is and when will they see the risk being 
mitigated? And so I think with a program like the NSF program 
that's being described, one of the key roles that that does is 
it shows the direction and it mitigates the risk so that you 
can free up and realize the private sector investment.
    Chairman Smith. Dr. Smalley, you have an answer.
    Mr. Smalley. Well, there's a huge difference between the 
circumstance where you see a product in 2 to 3 years and one 
where you imagine one in 10 years. In the current financial 
enterprise, you can make a start-up for the first, but you'd be 
a fool to make a start-up with the second, unless you're in the 
biotech industry in which case you may still be a fool.
    We're certainly talking about the 10-year, 20-year time 
horizon. And so, at the moment, this is primarily a 
responsibility of large organizations in societies like our 
Federal Government. I believe that's really the way it ought to 
be. I mean, I think that American industry has evolved in a 
healthy way and that they are much better about taking care of 
the short-term applications where they need to get their 
profits. But that devolves upon universities and 
federallaboratories much more the core responsibility for taking care 
of a longer-distance view.
    Chairman Smith. Dr. Wong, how would we manage a multi-
agency nanoscience initiative? Should NSF be a lead agency? 
Have you done any thought on this? Has there been any talk 
between the agencies that are now working----
    Mr. Wong. The NSF has been the coordinator of a major 
interagency effort for the last few years. There's a very 
active working group going on now chaired by NSF in this area. 
We are prepared to play that role. We've had a long history in 
it. We are absolutely determined and devoted to this as a major 
strategic direction. Since we are the primary funder of basic 
sciences and long-lead-time projects, I think we are probably 
in a position to do that.
    Chairman Smith. How about our effort of being aware of the 
research that's being accomplished in other countries? Do we 
have the--I notice we have cut way back on our science attaches 
even in Japan. Do we have the proper effort to observe and keep 
abreast of what's happening in other countries? Whoever can 
best answer that.
    Mr. Smalley. Well, as an active researcher in the field, 
the one thing we do most of the time is worry about what other 
people are doing. And so there is a tremendous amount of 
scrutiny and, for that matter, collaboration with researchers 
in European and Japanese laboratories. So that aspect, I think, 
is well in hand.
    Now, broader, on the national security level, looking at 
programs we may not be aware of through the published 
literature and at conferences and so forth, this I'm not 
equipped to comment on but it is, perhaps, something that needs 
to be looked at.
    Chairman Smith. Representative Woolsey.
    Ms. Woolsey. Well, you stole my question. And I was going 
to ask Dr. Wong and Dr. McWhorter about cooperation 
internationally. So I suppose what I'd like to say--ask is how 
can we do a better job of being--of partnering with other 
scientists around the world so we're not reinventing the wheel 
if it's already invented and et cetera.
    Mr. Wong. I think we've--over the last 15 years or 20 
years--we really have evolved a system of international 
competition yet cooperation at the same time that's extremely 
healthy. At the basic science research level, there's open 
publication, there's open exchange. I think that's been a 
tremendous boon to the whole field and we will continue to do 
that.
    Ms. Woolsey. Mr. McWhorter.
    Mr. McWhorter. I agree. I think this is an area that we 
have done very well in. You know, we are a global community now 
and it's, you know, I think the world of scientists are much 
more connected these days and most of the conferences are 
international in nature and so there's a lot of interaction 
among people from different countries.
    Ms. Woolsey. Well, where would it not be? I mean, when we 
talk nuclear, is that a place where we wouldn't be sharing?
    Mr. Wong. I think there are at least two areas where one 
has to be very careful. One is national security issues, when 
national security issues are involved, clearly we ought to be 
careful. And second is when intellectual properties are 
involved, when the research and development have moved 
sufficiently downstream to have property rights. I think there 
we have to be careful as well unless our commercial interests 
be impaired.
    Ms. Woolsey. And is it possible to be careful enough? I 
mean, if we are all working together globally would we maybe 
not have to be so careful? Oh, you know where I am. I've shown 
my hand.
    Mr. Wong. My bias is that we can always improve, but I 
think we're doing pretty well. That's my bias.
    Ms. Woolsey. Anybody else like to respond to that?
    Mr. Smalley. I believe it's much easier to render the 
entire process sterile by trying to be too careful than it is 
to both succeed in developing an area and make sure that you've 
kept it all to yourself. You spend all your time trying to make 
sure that nobody else gets a good idea, you shut down your own 
intellectual activities.
    So in this area of nanotechnology where it's tempting, in 
fact almost impossible to avoid, talking about revolutionary 
advances, which will have huge economic impact and national 
security implications, it's quite easy to get yourself in a 
conversation where you're saying, well, if it's that important, 
let's put it all behind a fence and we'll do it all ourselves 
and never talk to anybody. And that would be a prescription for 
sterility. It would not happen in the United States. And we 
would guarantee being a third-class player in the game.
    Ms. Woolsey. Okay.
    Mr. McWhorter. I think that we can keep in mind the 
difference between nanotechnology in general versus specific, 
say, national security applications of nanotechnology. And in 
the general case, you know, cooperation is good. And in the 
specific case of national security, secrecy and confidentiality 
is critical. And so there would be applications that, maybe at 
a national lab, where, you know, we wouldn't talk about the 
work. And so, you know, the national security issue is a very 
important one.
    Mr. Merkle. Yes, I think, actually, I would agree with the 
general comments. One of the observations is that an 
international cooperative effort where we are very closely 
involved with researchers in other countries is also a very 
good way of monitoring their activities so that we are not 
caught by surprise.
    Ms. Woolsey. Thank you.
    Chairman Smith. Mr. Larson.
    Mr. Larson. Thank you again, Chairman Smith. And, again, my 
appreciation. Just a quick two questions. One will be very 
simple to answer, but the--in the President's proposed 
information technology initiative, it includes the acquisition 
of the terascale computing system for addressing challenging 
scientific computing problems. What would be the impact of that 
level of computational power on nanotechnology research?
    Mr. Smalley. It's vast. The key aspect of nanotechnology is 
you're now dealing at the fundamental, ultimate level where you 
know where all the atoms are. That instantly makes it a 
fundamental science. So if you know where the atoms are, you 
can say, okay, how does it behave? And it becomes a 
calculatable problem. Well, not calculatable with the computers 
of a couple decades ago, but, interesting, calculatable now 
with these new incredible computers.
    And I can tell you from my own research as we try to build 
these cables that are 100 times stronger than steel and so 
forth, every day there are questions: well, how can we make 
this work? And we'll think up some way. It'll take usmonths to 
see whether it works. And we do calculations to see whether it's 
feasible. And those calculations are now becoming much, much more 
relevant and much more fundamental.
    It's a wonderful aspect about nanotechnology that hasn't 
been mentioned today so far is that it is simultaneously deep, 
fundamental true science of the true ivory tower sort and yet 
commercially, in some cases immediately, financially 
interesting. By and large the reason that biotechnology has a 
special flavor is that it is a nanotechnology. That you know 
where all the atoms are. You can calculate it. And yet you're 
dealing with some little nano object that suddenly has a 
commercial importance as a drug. And so you will find 
researchers in biotech industries, completely privately funded, 
doing research that would fit perfectly in a biochemistry 
department in a university and visa-versa. There's this 
immediacy between the ivory tower pure scientist and the 
technologist.
    In the rest of science, by and large, that's not been the 
case. The pure scientists are dealing with problems and 
techniques that are pretty far from the commercial realm, with 
a few exceptions. But in nanotechnology, they will get much 
more together. So it will have the effect of vitalizing the 
American scientific establishment by getting the scientist at 
the most fundamental levels involved in objects of societal and 
commercial importance.
    Mr. Larson. What are the top 10 universities in this 
country dealing with this technology?
    Mr. Smalley. Well, Rice University, clearly, is number one. 
[Laughter.]
    By and large, they are the top 10 that you always hear 
mentioned, although since the 1960's and the 1970's, the 
strength of research in this country has broadened out 
dramatically from the Harvard and MIT, Cal Tech, Princeton, 
Yale. But those names still are up high on the list, for good 
reasons.
    Mr. Wong. Let me mention, if I may, a topic that hasn't 
been raised--bioinformatics. It's a subject that's very closely 
connected with nanotechnology. And bioinformatics lives on 
terascale computers. And the computation involving the shape of 
molecules and their functions is a critical part of 
bioinformatics. And it's probably the most exciting part of 
biotechnology today.
    Mr. Larson. And, Dr. Merkle, you've made the distinction a 
couple of times here, at least--and for a non-scientist, 
forgive me--but you keep--when we say nanotechnology, you make 
a point to say molecular nanotechnology.
    Mr. Merkle. Well, I think there is the idea that we'll be 
able to build a wide arrangement of molecular structures. And, 
in particular, one of the things which, of course, I've 
mentioned a few times is that artificial self-replicating 
systems will play an important role. This is an idea which I 
think is gaining acceptance, but is not yet fully accepted 
throughout the scientific community, and so I want to just say 
that this is an area where there are some differences in 
opinion about the particular routes to follow, but, 
nonetheless, agreement about the overall goals and objectives 
that we should be able to build, essentially, most of the 
structures that are consistent with physical law.
    Mr. Larson. Thank you, sir.
    Chairman Smith. Gentlemen, on behalf of the Committee, the 
Congress, the Nation, our compliments to you for what you have 
achieved so far. I think all of us that have heard your 
testimony today and will read your testimony in the transcript 
are going to be the flag bearers because it seems obvious that 
the information--there's enough information and enough 
justification to aggressively pursue additional research in 
this area. I mean, it might not culminate in what we would hope 
it would, but it seems obvious that the justification is there 
and it's a worthwhile pursuit and I think we will aggressively 
pursue that as we proceed with our new appropriations.
    So, again, my thanks. My compliments. We would like to ask 
your permission to send you additional questions. One question 
I would like you to answer for us, if you will, is how do we 
best devise the kind of peer-review process that is going to 
help us best assure that the taxpayers' dollars is best spent? 
So if you'll include that in your responses.
    Chairman Smith. So, again, thank you very much and this 
Committee is adjourned.
    [Whereupon, at 4:20 p.m., the Subcommittee was adjourned.]



    [GRAPHIC] [TIFF OMITTED] 60678.001
    
    [GRAPHIC] [TIFF OMITTED] 60678.002
    
    [GRAPHIC] [TIFF OMITTED] 60678.003
    
    [GRAPHIC] [TIFF OMITTED] 60678.004
    
    [GRAPHIC] [TIFF OMITTED] 60678.005
    
    [GRAPHIC] [TIFF OMITTED] 60678.006
    
    [GRAPHIC] [TIFF OMITTED] 60678.007
    
    [GRAPHIC] [TIFF OMITTED] 60678.008
    
    [GRAPHIC] [TIFF OMITTED] 60678.009
    
    [GRAPHIC] [TIFF OMITTED] 60678.010
    
    [GRAPHIC] [TIFF OMITTED] 60678.011
    
    [GRAPHIC] [TIFF OMITTED] 60678.012
    
    [GRAPHIC] [TIFF OMITTED] 60678.013
    
    [GRAPHIC] [TIFF OMITTED] 60678.014
    
    [GRAPHIC] [TIFF OMITTED] 60678.015
    
    [GRAPHIC] [TIFF OMITTED] 60678.016
    
    [GRAPHIC] [TIFF OMITTED] 60678.017
    
    [GRAPHIC] [TIFF OMITTED] 60678.018
    
    [GRAPHIC] [TIFF OMITTED] 60678.019
    
    [GRAPHIC] [TIFF OMITTED] 60678.020
    
    [GRAPHIC] [TIFF OMITTED] 60678.021
    
    [GRAPHIC] [TIFF OMITTED] 60678.022
    
    [GRAPHIC] [TIFF OMITTED] 60678.023
    
    [GRAPHIC] [TIFF OMITTED] 60678.024
    
    [GRAPHIC] [TIFF OMITTED] 60678.025
    
    [GRAPHIC] [TIFF OMITTED] 60678.026
    
    [GRAPHIC] [TIFF OMITTED] 60678.027
    
    [GRAPHIC] [TIFF OMITTED] 60678.028
    
    [GRAPHIC] [TIFF OMITTED] 60678.030
    
    [GRAPHIC] [TIFF OMITTED] 60678.031
    
    [GRAPHIC] [TIFF OMITTED] 60678.032
    
    [GRAPHIC] [TIFF OMITTED] 60678.033
    
    [GRAPHIC] [TIFF OMITTED] 60678.034
    
    [GRAPHIC] [TIFF OMITTED] 60678.035
    
    [GRAPHIC] [TIFF OMITTED] 60678.036
    
    [GRAPHIC] [TIFF OMITTED] 60678.037
    
    [GRAPHIC] [TIFF OMITTED] 60678.038
    
    [GRAPHIC] [TIFF OMITTED] 60678.039
    
    [GRAPHIC] [TIFF OMITTED] 60678.040
    
    [GRAPHIC] [TIFF OMITTED] 60678.041
    
    [GRAPHIC] [TIFF OMITTED] 60678.042
    
    [GRAPHIC] [TIFF OMITTED] 60678.043
    
    [GRAPHIC] [TIFF OMITTED] 60678.044
    
    [GRAPHIC] [TIFF OMITTED] 60678.045
    
    [GRAPHIC] [TIFF OMITTED] 60678.046
    
    [GRAPHIC] [TIFF OMITTED] 60678.047
    
    [GRAPHIC] [TIFF OMITTED] 60678.048
    
    [GRAPHIC] [TIFF OMITTED] 60678.049
    
    [GRAPHIC] [TIFF OMITTED] 60678.050
    
    [GRAPHIC] [TIFF OMITTED] 60678.051
    
    [GRAPHIC] [TIFF OMITTED] 60678.052
    
    [GRAPHIC] [TIFF OMITTED] 60678.053
    
    [GRAPHIC] [TIFF OMITTED] 60678.054
    
    [GRAPHIC] [TIFF OMITTED] 60678.055
    
    [GRAPHIC] [TIFF OMITTED] 60678.056
    
    [GRAPHIC] [TIFF OMITTED] 60678.057
    
    [GRAPHIC] [TIFF OMITTED] 60678.058
    
    [GRAPHIC] [TIFF OMITTED] 60678.059
    
    [GRAPHIC] [TIFF OMITTED] 60678.060
    
    [GRAPHIC] [TIFF OMITTED] 60678.061
    
    [GRAPHIC] [TIFF OMITTED] 60678.062
    
    [GRAPHIC] [TIFF OMITTED] 60678.063
    
    [GRAPHIC] [TIFF OMITTED] 60678.064
    
    [GRAPHIC] [TIFF OMITTED] 60678.065
    
    [GRAPHIC] [TIFF OMITTED] 60678.066
    
    [GRAPHIC] [TIFF OMITTED] 60678.067
    
    [GRAPHIC] [TIFF OMITTED] 60678.068
    
    [GRAPHIC] [TIFF OMITTED] 60678.069
    
    [GRAPHIC] [TIFF OMITTED] 60678.070
    
    [GRAPHIC] [TIFF OMITTED] 60678.071
    
    [GRAPHIC] [TIFF OMITTED] 60678.072
    
    [GRAPHIC] [TIFF OMITTED] 60678.073
    
    [GRAPHIC] [TIFF OMITTED] 60678.074
    
    [GRAPHIC] [TIFF OMITTED] 60678.075
    
    [GRAPHIC] [TIFF OMITTED] 60678.076
    
    [GRAPHIC] [TIFF OMITTED] 60678.077
    
    [GRAPHIC] [TIFF OMITTED] 60678.078
    
    [GRAPHIC] [TIFF OMITTED] 60678.079
    
    [GRAPHIC] [TIFF OMITTED] 60678.080
    
    [GRAPHIC] [TIFF OMITTED] 60678.081
    
    [GRAPHIC] [TIFF OMITTED] 60678.082
    
    [GRAPHIC] [TIFF OMITTED] 60678.083
    
    [GRAPHIC] [TIFF OMITTED] 60678.084
    
    [GRAPHIC] [TIFF OMITTED] 60678.085
    
    [GRAPHIC] [TIFF OMITTED] 60678.086
    
    [GRAPHIC] [TIFF OMITTED] 60678.087
    
    [GRAPHIC] [TIFF OMITTED] 60678.088
    
    [GRAPHIC] [TIFF OMITTED] 60678.089
    
    [GRAPHIC] [TIFF OMITTED] 60678.090
    
    [GRAPHIC] [TIFF OMITTED] 60678.091
    
    [GRAPHIC] [TIFF OMITTED] 60678.092
    
    [GRAPHIC] [TIFF OMITTED] 60678.093
    
    [GRAPHIC] [TIFF OMITTED] 60678.094
    
    [GRAPHIC] [TIFF OMITTED] 60678.095
    
    [GRAPHIC] [TIFF OMITTED] 60678.096
    
    [GRAPHIC] [TIFF OMITTED] 60678.097
    
    [GRAPHIC] [TIFF OMITTED] 60678.098
    
    [GRAPHIC] [TIFF OMITTED] 60678.099
    
    [GRAPHIC] [TIFF OMITTED] 60678.100
    
    [GRAPHIC] [TIFF OMITTED] 60678.101
    
    [GRAPHIC] [TIFF OMITTED] 60678.102
    
    [GRAPHIC] [TIFF OMITTED] 60678.103
    
    [GRAPHIC] [TIFF OMITTED] 60678.104
    
    [GRAPHIC] [TIFF OMITTED] 60678.105
    
    [GRAPHIC] [TIFF OMITTED] 60678.106
    
    [GRAPHIC] [TIFF OMITTED] 60678.107
    
    [GRAPHIC] [TIFF OMITTED] 60678.108
    
    [GRAPHIC] [TIFF OMITTED] 60678.109
    
    [GRAPHIC] [TIFF OMITTED] 60678.110
    
    [GRAPHIC] [TIFF OMITTED] 60678.111
    
    [GRAPHIC] [TIFF OMITTED] 60678.112
    
    [GRAPHIC] [TIFF OMITTED] 60678.113
    
    [GRAPHIC] [TIFF OMITTED] 60678.114
    
    [GRAPHIC] [TIFF OMITTED] 60678.115
    
    [GRAPHIC] [TIFF OMITTED] 60678.116
    
    [GRAPHIC] [TIFF OMITTED] 60678.117
    
    [GRAPHIC] [TIFF OMITTED] 60678.118
    
                              -

</pre></body></html>
